      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




January 19, 2010

TO:            Charlene M. Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Florida’s Claims Associated With the Increased Federal Medical
               Assistance Percentage Under the American Recovery and Reinvestment Act of
               2009 (A-04-09-06110)


Attached is an advance copy of our final report on Florida’s claims associated with the increased
Federal medical assistance percentage (FMAP) under the American Recovery and Reinvestment
Act of 2009, P.L. No. 111-5 (Recovery Act), enacted February 17, 2009. We will issue this
report to Florida’s Agency for Health Care Administration (State agency) within 5 business days.

The Recovery Act provides, among other initiatives, fiscal relief to States to protect and maintain
State Medicaid programs in a period of economic downturn. For the recession adjustment period
(October 1, 2008, through December 31, 2010), the Recovery Act provides an estimated
$87 billion in additional Medicaid funding based on temporary increases in States’ FMAPs.

The amount to be claimed for the temporary increase in FMAP is not based on total Medicaid
expenditures. Section 5001(e) of the Recovery Act lists the Medicaid expenditures that do not
qualify for the temporarily increased FMAP: disproportionate share hospital payments,
Children’s Health Insurance Program expenditures, expenditures subject to an enhanced FMAP
described in § 2105(b) of the Social Security Act, and some Temporary Assistance to Needy
Families expenditures; expenditures for individuals made eligible through income eligibility
expansions after July 1, 2008; and expenditures not based on the FMAP. Furthermore, section
5001(f)(5) of the Recovery Act states that no increase in a State’s FMAP may result in an FMAP
that exceeds 100 percent.

The State agency claimed medical assistance payments of approximately $4.9 billion for Federal
reimbursement for the period of October 1, 2008, through March 31, 2009. Recovery Act funds
of approximately $817 million were included in this reimbursement. For this period, the State
agency’s regular FMAP rate was 55.40 percent, and the temporarily increased FMAP rate was
67.64 percent.
Page 2 – Charlene M. Frizzera


Our objectives were to determine whether the State agency’s $817 million in claims associated
with the temporarily increased FMAP was computed using the Medicaid expenditure base
specified in the Recovery Act and whether the expenditures were supported by the State
agency’s accounting records.

The State agency’s $817 million in claims associated with the temporarily increased FMAP were
computed using the Medicaid expenditure base specified in the Recovery Act, and the
expenditures were supported by the State agency’s accounting records.

In addition, the State agency had policies and procedures in place to segregate Medicaid
expenditures that qualified for the temporarily increased FMAP and to ensure that those
Medicaid expenditures that did not qualify were not being claimed for reimbursement at the
temporarily increased FMAP.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through email at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-09-06110 in
all correspondence.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW., Suite 3T41
                                                                          Atlanta, GA 30303

January 25, 2010

Report Number: A-04-09-06110

Mr. Dyke Snipes
Deputy Secretary for Medicaid
Florida Medicaid Agency
2727 Mahan Drive, Mail Stop 8
Tallahassee, Florida 32308

Dear Mr. Snipes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Florida’s Claims Associated With the Increased
Federal Medical Assistance Percentage Under the American Recovery and Reinvestment Act.”
We will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-04-09-06110 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
HHS Action Official:
Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF FLORIDA’S CLAIMS
 ASSOCIATED WITH THE INCREASED
  FEDERAL MEDICAL ASSISTANCE
PERCENTAGE UNDER THE AMERICAN
RECOVERY AND REINVESTMENT ACT
            OF 2009




                        Daniel R. Levinson
                         Inspector General

                          January 2010
                          A-04-09-06110
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Florida, the Agency for Health Care
Administration (State agency) administers the Medicaid program, which includes developing and
maintaining internal controls.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act provides an
estimated $87 billion in additional Medicaid funding based on temporary increases in States’
Federal medical assistance percentage (FMAP). The Federal Government pays its share of a
State’s medical assistance expenditures under Medicaid based on the FMAP, which varies
depending on that State’s relative per capita income.

The Department of Health and Human Services, Office of Assistant Secretary for Planning and
Evaluation (ASPE), calculates the increased FMAP on a quarterly basis for the 50 States and the
District of Columbia. ASPE provides these increased FMAPs to CMS, which uses them to
determine the amount of Federal funds to award to the States through its Medicaid grant
process. In a previous audit, we reviewed the ASPE FMAP calculations (“Review of the
Calculations of Temporary Increases in Federal Medical Assistance Percentages Under the
American Recovery and Reinvestment Act,” A-09-09-00075) and determined that ASPE
calculated the increased FMAPs for the first and second quarters of Federal fiscal year (FY)
2009 for all 50 States and the District of Columbia in accordance with applicable provisions of
the Recovery Act. In another audit, we reviewed CMS’s calculation for the additional FMAP
Medicaid funding (“Review of the Calculation of Additional Medicaid Funding Awarded Under
the American Recovery and Reinvestment Act,” A-09-09-00080) and determined that, for the
first two quarters of FY 2009, CMS had calculated the additional Medicaid funding awarded
under the Recovery Act in accordance with Federal law.

The amount to be claimed for the temporary increase in FMAP is not based on total Medicaid
expenditures. Section 5001(e) of the Recovery Act lists the Medicaid expenditures that do not
qualify for the temporarily increased FMAP: disproportionate share hospital payments,
Children’s Health Insurance Program expenditures, expenditures subject to an enhanced FMAP
described in § 2105(b) of the Act, and some Temporary Assistance to Needy Families
expenditures; expenditures for individuals made eligible through income eligibility expansions
after July 1, 2008; and expenditures not based on the FMAP. Furthermore, section 5001(f)(5) of
the Recovery Act states that no increase in a State’s FMAP may result in an FMAP that exceeds



                                               i
100 percent. For the first and second quarters of FY 2009, the State agency’s regular FMAP rate
was 55.40 percent, and the temporarily increased FMAP rate was 67.64 percent.

The State agency claimed medical assistance payments of approximately $4.9 billion for Federal
reimbursement on its Form CMS-64, “Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program” for the period of October 1, 2008, through March 31, 2009.
Recovery Act funds of approximately $817 million were included in this reimbursement.

OBJECTIVES

Our objectives were to determine whether the State agency’s $817 million in claims associated
with the temporarily increased FMAP was computed using the Medicaid expenditure base
specified in the Recovery Act and whether the expenditures were supported by the State
agency’s accounting records.

SUMMARY OF RESULTS

The State agency’s $817 million in claims associated with the temporarily increased FMAP were
computed using the Medicaid expenditure base specified in the Recovery Act, and the
expenditures were supported by the State agency’s accounting records.

In addition, the State agency had policies and procedures in place to segregate Medicaid
expenditures that qualified for the temporarily increased FMAP and to ensure that those
Medicaid expenditures that did not qualify were not being claimed for reimbursement at the
temporarily increased FMAP. The State agency had documented these policies and procedures,
and their dissemination to the staff responsible for submission of the CMS-64, to ensure that the
State agency claimed only Medicaid expenditures that were eligible for the temporarily increased
FMAP under the provisions of the Recovery Act.

Therefore, we have no recommendations.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION..............................................................................................................1

      BACKGROUND ..........................................................................................................1
        Medicaid Program....................................................................................................1
        American Recovery and Reinvestment Act of 2009................................................1

      OBJECTIVES, SCOPE, AND METHODOLOGY......................................................2
        Objectives ................................................................................................................2
        Scope........................................................................................................................2
        Methodology ............................................................................................................3

RESULTS OF AUDIT.......................................................................................................4




                                                                      iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time.

States report Medicaid expenditures to CMS on the Form CMS-64, “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program” (CMS-64).

In Florida, the Agency for Health Care Administration (State agency) administers the Medicaid
program, which includes developing and maintaining internal controls.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provides, among other initiatives, fiscal relief to States to protect and
maintain State Medicaid programs in a period of economic downturn. For the recession
adjustment period (October 1, 2008, through December 31, 2010), the Recovery Act will provide
an estimated $87 billion in additional Medicaid funding based on temporary increases in States’
FMAPs. Section 5000 of the Recovery Act provides these increases to help avert cuts in health
care provider payment rates, benefits, or services and to prevent changes in income eligibility
requirements that would reduce the number of individuals eligible for Medicaid. For the first
two quarters of Federal fiscal year (FY) 2009, CMS made available to States, beginning
February 25, 2009, approximately $16 billion in additional Medicaid funding based on the
increased FMAP for each State. Since then, CMS has provided guidance to State Medicaid
agencies (in the form of letters to State Medicaid directors) regarding implementation of the
provisions of the Recovery Act, including provisions for the temporarily increased FMAP.

The Department of Health and Human Services, Office of Assistant Secretary for Planning and
Evaluation (ASPE), calculates the increased FMAP on a quarterly basis for the 50 States and the
District of Columbia. ASPE provides these increased FMAPs to CMS, which uses them to
determine the amount of Federal funds to award to the States through its Medicaid grant



                                               1
process. In a previous audit, we reviewed the ASPE FMAP calculations (“Review of the
Calculations of Temporary Increases in Federal Medical Assistance Percentages Under the
American Recovery and Reinvestment Act,” A-09-09-00075) and determined that ASPE
calculated the increased FMAPs for the first and second quarters of FY 2009 for all 50 States and
the District of Columbia in accordance with applicable provisions of the Recovery Act. In
another audit, we reviewed CMS’s calculation for the additional FMAP Medicaid funding
(“Review of the Calculation of Additional Medicaid Funding Awarded Under the American
Recovery and Reinvestment Act,” A-09-09-00080) and determined that, for the first two quarters
of FY 2009, CMS had calculated the additional Medicaid funding awarded under the Recovery
Act in accordance with Federal law.

The amount to be claimed for the temporary increase in FMAP is not based on total Medicaid
expenditures. Section 5001(e) of the Recovery Act lists the Medicaid expenditures that do not
qualify for the temporarily increased FMAP: disproportionate share hospital payments,
Children’s Health Insurance Program expenditures, expenditures subject to an enhanced FMAP
described in § 2105(b) of the Act, and Temporary Assistance to Needy Families expenditures;
expenditures for individuals made eligible through income eligibility expansions after July 1,
2008; and expenditures not based on the FMAP.

Pursuant to section 5001(f)(5) of the Recovery Act, no increase in a State’s FMAP may result in
an FMAP that exceeds 100 percent. For the first and second quarters of FY 2009, the State
agency’s regular FMAP rate was 55.40 percent, and the temporarily increased FMAP rate was
67.64 percent.

The State agency claimed medical assistance payments of approximately $4.9 billion for Federal
reimbursement on its CMS-64s for the period of October 1, 2008, through March 31, 2009.
Recovery Act funds of approximately $817 million were included in this reimbursement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency’s $817 million in claims associated
with the temporarily increased FMAP was computed using the Medicaid expenditure base
specified in the Recovery Act and whether the expenditures were supported by the State
agency’s accounting records.

Scope

We reviewed the amount claimed on the CMS-64s for the first two quarters of FY 2009
(October 1, 2008, through March 31, 2009). We reviewed the State agency’s internal controls to
the extent necessary to accomplish our objectives.

We did not audit expenditures made by the State agency during this period to assure that they
qualified for Federal Medicaid reimbursement.




                                               2
We performed fieldwork at the State agency’s offices in Tallahassee, Florida, during June 2009.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws and regulations and CMS guidance;

       reviewed the State agency’s policies and procedures for segregating the Medicaid
        expenditures that qualified for the temporarily increased FMAP from those that did not;

       reviewed the State agency’s State Medicaid plan;

       reviewed Florida’s FY 2008 A-133 audit 1 and interviewed personnel in the Florida State
        Auditor’s Office for insight on possible internal control weaknesses found during that
        office’s review of the State agency;

       interviewed State agency personnel in charge of compiling the CMS-64s to understand
        the procedures used to calculate the reported Medicaid expenditures;

       identified the Medicaid expenditures that qualified for the temporarily increased FMAP,
        as well as those that did not qualify for the temporarily increased FMAP, as reported on
        the CMS-64s for the first two quarters of FY 2009;

       traced selected Medicaid expenditure line item amounts (both those that qualified for the
        temporarily increased FMAP and those that did not qualify) as reported on the CMS-64s
        to the high-level accounting records and supporting documentation; and

       discussed our results with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.




1
 The Office of Management and Budget (OMB) issued Circular A-133, “Audits of States, Local Governments, and
Non-Profit Organizations,” pursuant to the Single Audit Act of 1984, P.L. 98-502, and the Single Audit Act
Amendments of 1996, P.L. 104-156, to set forth standards for obtaining consistency and uniformity among Federal
agencies for the audit of States, local governments, and nonprofit organizations expending Federal awards. A single
audit requires an audit of the State’s financial statements and expenditures of Federal awards.



                                                         3
                                    RESULTS OF AUDIT

The State agency’s $817 million in claims associated with the temporarily increased FMAP were
computed using the Medicaid expenditure base specified in the Recovery Act, and the
expenditures were supported by the State agency’s accounting records.

In addition, the State agency had policies and procedures in place to segregate Medicaid
expenditures that qualified for the temporarily increased FMAP and to ensure that those
Medicaid expenditures that did not qualify were not being claimed for reimbursement at the
temporarily increased FMAP. The State agency had documented these policies and procedures,
as well as their dissemination to the staff responsible for submission of the CMS-64, to ensure
that it claimed only Medicaid expenditures that were eligible for the temporarily increased
FMAP under the provisions of the Recovery Act.

Therefore, we have no recommendations.




                                               4
